Office of Material Loss Reviews
Report No. MLR-11-001


Material Loss Review of Appalachian
Community Bank, Ellijay, Georgia




                                  October 2010
                                     Executive Summary

                                     Material Loss Review of Appalachian
                                     Community Bank, Ellijay, Georgia
                                                                                     Report No. MLR-11-001
                                                                                              October 2011

Why We Did The Audit

On March 19, 2010, the Georgia Department of Banking and Finance (DBF) closed Appalachian
Community Bank (Appalachian), Ellijay, Georgia and named the FDIC as receiver. On April 1, 2010, the
FDIC notified the Office of Inspector General (OIG) that Appalachian’s total assets at closing were
$1.04 billion and the estimated loss to the Deposit Insurance Fund (DIF) was $415 million. As of
September 3, 2010, the estimated loss to the DIF had increased to $420 million. As required by
section 38(k) of the Federal Deposit Insurance Act (FDI Act), as amended by the Dodd-Frank Wall Street
Reform and Consumer Protection Act, the OIG conducted a material loss review of the failure of
Appalachian.

The audit objectives were to (1) determine the causes of Appalachian’s failure and the resulting material
loss to the DIF and (2) evaluate the FDIC’s supervision of the institution, including implementation of the
Prompt Corrective Action (PCA) provisions of section 38.


Background
Appalachian was a state nonmember bank established on March 3, 1995, and was wholly-owned by
Appalachian Bancshares, Inc., Ellijay, Georgia (ABI), a two-bank holding company. Appalachian was
headquartered in Ellijay, Georgia, which is located approximately 80 miles north of Atlanta in the
foothills of the Blue Ridge Mountains. The bank’s main office was located in Gilmer County and held
41 percent of the institution’s total deposits. Appalachian’s business strategy focused on growth in
commercial real estate (CRE), in particular, acquisition, development, and construction (ADC) lending
that was supported, in part, by wholesale funding, including brokered deposits and Federal Home Loan
Bank (FHLB) borrowings.


Audit Results

Causes of Failure and Material Loss

Appalachian’s failure can be attributed to losses associated with its ADC loan concentrations that were
the center of the Board’s and management’s growth strategy. Although initially profitable, Appalachian’s
Board and management failed to provide appropriate oversight of its ADC lending activities, especially
when economic conditions began to decline. Inadequate underwriting and credit administration led to the
rapid deterioration of asset quality, which eroded the bank’s capital. DBF closed after capital declined to
unsafe and unsound levels and prospects for recapitalization or sale of the bank failed to materialize.

The FDIC’s Supervision of Appalachian

Our review focused on FDIC and DBF supervisory oversight of Appalachian between 2006 and 2010.
The FDIC and DBF conducted timely and regular examinations of Appalachian and monitored its
condition through the use of offsite monitoring mechanisms. Through its supervisory efforts, the FDIC
and DBF identified risks in Appalachian’s operations and brought these to the attention of the bank’s
Board and management through examination reports and other correspondence. Such risks included the


                                 To view the full report, go to www.fdicig.gov
   Executive Summary
                                      Material Loss Review of Appalachian
                                      Community Bank, Ellijay, Georgia
                                                                                       Report No. MLR-11-001
                                                                                                October 2010

bank’s growth, significant concentrations in CRE and ADC loans, and poor Board and management
oversight of risk management processes. Regulators imposed a formal enforcement action following the
2008 examination; however, Appalachian’s response fell short and the financial condition of the bank
became critically deficient.

In retrospect, a more critical supervisory assessment of Management and Asset Quality based on
Appalachian’s increasing risk profile during the 2006 and 2007 examinations may have been prudent.
Such an approach could have helped to establish supervisory expectations with regard to ADC
concentrations and the bank’s responsibilities for mitigating risks at a critical point in time. Further, this
approach may have led to lower CAMELS ratings in 2006 or 2007 and possibly an informal supervisory
action, which would have increased supervisory attention to Appalachian’s performance and risks earlier.

The FDIC has taken a number of actions to address issues discussed in this report based on lessons it has
learned from failures during the financial crisis. Of note, in 2008 the FDIC reiterated broad supervisory
expectations with regard to managing risk associated with CRE and ADC concentrations. Further, the
FDIC completed a training initiative in March 2010 for its supervisory workforce that emphasizes the
need to assess a bank’s risk profile using forward-looking supervision. The training addresses the need
for examiners to consider management practices as well as current financial performance or trends in
assigning ratings, as allowable under existing examination guidance.

With respect to PCA, based on the supervisory actions taken, the FDIC properly implemented applicable
PCA provisions of section 38 in a timely manner.

Management Response

On October 1, 2010, the Director, DSC, provided a written response to the draft report. DSC reiterated
the OIG’s conclusions regarding the causes of Appalachian’s failure. With regard to our assessment of
the FDIC’s supervision of Appalachian, DSC summarized supervisory activities between 2006 and 2009
described in our report, including onsite examinations, offsite monitoring, and the issuance of a formal
enforcement action in 2009. DSC agreed that greater emphasis could have been placed on Appalachian’s
increasing risk profile. Further, in recognition of the threat that institutions with high risk profiles, such
as Appalachian, pose to the DIF, DSC stated it has issued guidance to financial institutions that re-
emphasizes the importance of robust credit risk management practices for institutions with concentrated
CRE exposures and sets forth broad supervisory expectations.




                                  To view the full report, go to www.fdicig.gov
                               Contents
                                                                Page
Background                                                        2

Causes of Failure and Material Loss                               2
  ADC Concentrations                                              3
  Board and Management Oversight                                  6

The FDIC’s Supervision of Appalachian                             9
   Supervisory History                                           10
   Supervisory Response to Key Risks                             11
   Supervisory Lessons Learned                                   14
   Implementation of PCA                                         15

Corporation Comments                                             17

Appendices
  1. Objectives, Scope, and Methodology                          18
  2. Glossary of Terms                                           21
  3. Acronyms                                                    25
  4. Corporation Comments                                        26

Tables
   1. Financial Information for Appalachian, 2005 to 2009         2
   2. Appalachian’s ADC Concentrations Compared to Peer
      Group                                                       5
   3. Appalachian’s Examination History, 2006 to 2009            10
   4. Appalachian’s Capital Levels                               15

Figures
   1. Overview Map of Appalachian’s Market Area                   3
   2. Appalachian’s Loan Composition, 2005 to 2009                4
   3. Appalachian’s Loan and Lease Charge-offs, 2008 and 2009     6
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, Virginia 22226                                             Office of Inspector General


DATE:                                           October 1, 2010

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Supervision and Consumer Protection

                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews

SUBJECT:                                        Material Loss Review of Appalachian Community Bank,
                                                Ellijay, Georgia (Report No. MLR-11-001)

As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), as amended
by the Dodd-Frank Wall Street Reform and Consumer Protection Act (Financial Reform
Act), the Office of Inspector General (OIG) conducted a material loss review (MLR) of
the failure of Appalachian Community Bank (Appalachian), Ellijay, Georgia. The
Georgia Department of Banking and Finance (DBF) closed the institution on March 19,
2010, and named the FDIC as receiver. On April 1, 2010, the FDIC notified the OIG that
Appalachian’s total assets at closing were $1.04 billion and the estimated loss to the
Deposit Insurance Fund (DIF) was $415 million. As of September 3, 2010, the estimated
loss to the DIF had increased to $420 million. The estimated loss exceeds the $200 million
MLR threshold for losses occurring between January 1, 2010 and December 31, 2011, as
established by the Financial Reform Act.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of
Appalachian’s failure and the resulting material loss to the DIF and (2) evaluate the
FDIC’s supervision of Appalachian, including the FDIC’s implementation of the PCA
provisions of section 38 of the FDI Act. This report presents our analysis of
Appalachian’s failure and the FDIC’s efforts to ensure that the Board of Directors
(Board) and management operated the institution in a safe and sound manner. The report
does not contain formal recommendations. Instead, as major causes, trends, and common
characteristics of institution failures are identified in our material loss reviews, we will
communicate those to FDIC management for its consideration. As resources allow, we
may also conduct more comprehensive reviews of specific aspects of the FDIC’s
supervision program and make recommendations as warranted.1

Appendix 1 contains details on our objectives, scope, and methodology. We also include
several other appendices to this report. Appendix 2 contains a glossary of key terms;
including material loss, the FDIC’s supervision program, and the Uniform Financial
Institutions Rating System, otherwise known as the CAMELS ratings. Appendix 3
contains a list of acronyms. Appendix 4 contains the Corporation’s comments on this
report.

Background
Appalachian was a state nonmember bank established on March 3, 1995, and was
wholly-owned by Appalachian Bancshares, Inc., Ellijay, Georgia (ABI), a two-bank
holding company.2 Appalachian was headquartered in Ellijay, Georgia, which is located
approximately 80 miles north of Atlanta in the foothills of the Blue Ridge Mountains.
The bank’s main office was located in Gilmer County and held 41 percent of the
institution’s total deposits. Appalachian’s business strategy focused on growth in
commercial real estate (CRE), in particular, acquisition, development, and construction
(ADC) lending that was supported, in part, by wholesale funding, including brokered
deposits and Federal Home Loan Bank (FHLB) borrowings. Table 1 provides details on
Appalachian’s financial condition as of December 2009 and for the 4 preceding calendar
years.

Table 1: Financial Information for Appalachian, 2005 to 2009
         Financial Measure
                 ($000)                      Dec 2009        Dec 2008        Dec 2007       Dec 2006    Dec 2005
Total Assets                                 1,010,075       1,101,608        940,203         757,652   592,329
Total Loans                                   663,348         812,111         762,970         631,786   457,418
Total Deposits                                917,575         939,223         785,629         661,632   490,600
Brokered Deposits                              4,612           69,733         146,483         123,982    52,588
Federal Home Loan Bank (FHLB)
Borrowings                                     67,000         72,000          57,350          25,050     38,950
Net Income (Loss)                             (59,346)        (2,323)         6,753           7,134       6,027
Source: UBPR and ROEs for Appalachian Community Bank.



Causes of Failure and Material Loss
Appalachian’s failure can be attributed to losses associated with its ADC loan
concentrations that were the center of the Board’s and management’s growth strategy.

1
  A further discussion of OIG-related coverage of financial institution failures can be found in the
Objectives, Scope, and Methodology section of our report.
2
  Appalachian was considered an affiliate with the other institution held by ABI.


                                                      2
Although initially profitable, Appalachian’s Board and management failed to provide
appropriate oversight of its ADC lending activities, especially when economic conditions
began to decline. Inadequate underwriting and credit administration led to the rapid
deterioration of asset quality, which eroded the bank’s capital. DBF closed after capital
declined to unsafe and unsound levels and prospects for recapitalization or sale of the
bank failed to materialize.

ADC Concentrations

Historically, Appalachian relied on ADC lending to propel asset and earnings growth.
Appalachian’s lending strategy was initially profitable, but as the bank expanded, its
earnings performance began to weaken. Weak earnings and the losses associated with its
ADC portfolio as the economy declined proved to be financially disastrous for the bank.

Appalachian’s growth strategy was reflective of the population surge in Northern
Georgia. According to ABI’s 2005 annual report, the U.S. Census Bureau identified
Appalachian’s primary market area, Fannin, Union, and Gilmer counties, to be among the
100 fastest growing counties in the United States, based on housing unit estimates from
2000-2004. The proximity to the Atlanta, Georgia area combined with the natural
recreational features of the Northern Georgia landscape (mountains, lakes, and waterfalls)
fueled significant growth and development in the area. Population growth was driven by
an influx of retirees and individuals purchasing second homes or vacation homes in the
area. Figure 1 is a map from ABI’s 2005 annual report that illustrates where Appalachian
was located.

Figure 1: Overview Map of Appalachian’s Market Area




Source: ABI’s 2005 Annual Report.



                                            3
During 2006 and 2007, in response to loan demand in the region and to sustain market
share, Appalachian’s Board and management expanded the bank’s operations by
increasing the number of branch offices in adjoining counties. By mid-2009,
Appalachian operated 10 offices in seven Georgia counties and held the second largest
market share among the institutions operating within its market. Total loans grew from
$457 million at the end of 2005 to $812 million by the end of 2008. Figure 2 illustrates
Appalachian’s loan composition, which primarily consisted of CRE and ADC loans.

Figure 2: Appalachian’s Loan Composition, 2005 to 2009


                                        $900

                                        $800
                                                                                         $136
    Gross Loans and Leases (Millions)




                                                                              $126
                                        $700
                                                                                                     $116
                                        $600                     $111
                                                                                         $372
                                        $500                                  $375
                                                 $95                                                 $255
                                        $400                     $320

                                        $300     $203

                                        $200
                                                                              $268       $306        $292
                                                                 $200
                                        $100     $159

                                          $0
                                               2005          2006          2007        2008      2009
                                                                        Period Ended
                                                      All Other Loans      ADC Loans     CRE Loans

Source: Reports of Condition and Income (Call Reports) for Appalachian.

Management relied on wholesale funding to support asset growth. According to the 2006
examination report, brokered deposits increased significantly because the bank was able
to obtain brokered deposits at a lower cost than local deposits. The 2008 examination
report noted that the bank’s use of brokered deposits had decreased, but management had
significantly increased the bank’s reliance on Internet deposits and time deposits greater
than $100,000 – both of which are volatile funding sources.

In December 2006, Federal banking regulatory agencies issued guidance, entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance) that reinforces existing regulations and guidelines for real estate lending




                                                                          4
and safety and soundness.3 The guidance was issued because the agencies had observed
that CRE concentrations had been rising and could create safety and soundness concerns
in the event of a significant downturn. The guidance defines institutions with significant
CRE concentrations as those reporting loans for construction, land and development, and
other land (i.e., ADC) representing 100 percent or more of total capital; or institutions
reporting total CRE loans representing 300 percent or more of total capital, where the
outstanding balance of CRE has increased by 50 percent or more during the prior 36
months. Due to the risks associated with CRE and ADC lending, regulators consider
institutions with significant CRE and ADC concentrations to be of greater supervisory
concern. Table 2 illustrates Appalachian’s ADC concentrations, which significantly
exceeded the criteria established in the guidance as well as the bank’s peer group levels.4

Table 2: Appalachian’s ADC Concentrations Compared to Peer Group
                         ADC Loans as a                 ADC Loans as a
                    Percentage of Total Capital   Percentage of Total Loans
  Year Ending      Appalachian      Peer Group   Appalachian     Peer Group
        2005                  385%                   104%                   45%                   14%
        2006                  476%                   117%                   51%                   16%
        2007                  458%                   124%                   49%                   16%
        2008                  430%                   139%                   46%                   17%
        2009                  847%*                   97%                   38%                   13%
Source: UBPRs for Appalachian.
* The increase in risk exposure from ADC loans in 2009 was due primarily to the decline in the bank’s capital
level.

According to the Joint Guidance, risks posed by CRE concentrations, especially ADC
concentrations, include unanticipated earnings and capital volatility during a sustained
downturn in the real estate market. The housing market in northern Georgia began to
decline at the end of 2007, and Appalachian’s Adversely Classified Items Coverage Ratio
increased from 33 percent as of June 30, 2007 to 168 percent as of June 30, 2008. This
ratio is a measure of the asset risk and the ability of capital to protect against that risk. A
lower ratio is desirable because a higher ratio indicates exposure to poor-quality assets
and less ability for the bank’s capital to absorb any losses associated with those assets.
By June 30, 2009, the bank’s Adversely Classified Items Coverage ratio had increased to
736 percent. As shown in Figure 3, about $30 million of $52 million (approximately 58
percent) in loan and lease charge-offs involved CRE and ADC loans during 2008 and
2009.




3
  The guidance was issued jointly by the Office of the Comptroller of the Currency, the Board of Governors
of the Federal Reserve System, and the FDIC (collectively referred to as the agencies in the guidance).
4
  Institutions are assigned to 1 of 15 peer groups based on asset size, number of branches, and whether the
institution is located in a metropolitan or non-metropolitan area. Appalachian’s peer group included
institutions with assets between $1 billion and $3 billion.


                                                     5
Figure 3: Appalachian’s Loan and Lease Charge-offs, 2008 and 2009

                                          (Dollars in Thousands)


                                    $4,601
                   $6,556

                                                                                  $26,020




               $10,830

                                     $4,325
                        ADC Loans                         Other CRE Loans
                        1-4 Family Residential            Commercial & Industrial
                        All other Loans

Source: Call Reports for Appalachian.



Board and Management Oversight

Supervisory guidance states an institution’s Board is responsible for establishing
appropriate risk limits, monitoring exposure, and evaluating the effectiveness of the
institution’s efforts to manage and control risk.5 The guidance further states that
management’s ability to identify, measure, monitor, and control portfolio risk through
effective underwriting policies, systems, and internal controls is crucial to a sound ADC
lending program. Appalachian’s risk management practices did not evolve sufficiently to
mitigate the risks associated with its increasing ADC concentration. Examiners
commented that as the bank grew larger and more risky, management continued to run
the bank like a smaller, less complex institution.

Loan underwriting and credit administration weaknesses identified by examiners were
not adequately addressed by the Board and management. Appalachian was also cited for
being in contravention or in violation of regulatory requirements, which is a further
indication of poor Board and management oversight. According to the DSC Risk
Management Manual of Examination Policies (Examination Manual), it is important for a
financial institution’s Board to ensure that bank management is cognizant of applicable
laws and regulations, develops a system to effect and monitor compliance and, when
violations do occur, makes corrections as quickly as possible. Ultimately, the economic
downturn exposed Appalachian risk management weaknesses and contributed to the rapid
deterioration of asset quality.



5
 Financial Institution Letter (FIL)-110-98, entitled, Internal and Regulatory Guidelines for Managing
Risks Associated with Acquisition, Development, and Construction Lending, dated October 8, 1998.


                                                    6
The Board and management attempted to improve risk management practices as a result
of the 2008 examination, but the 2009 examination report noted that risk management
practices had not been implemented in a timely fashion and the viability of the bank was
in jeopardy. Further, the Board’s outside directors initiated an investigation of possible
bank policy violations related to insider transactions. This investigation led to separation
agreements with three senior bank officers in December 2009.

Loan Underwriting and Credit Administration Practices

Examiners identified a number of weak loan underwriting and credit administration
practices that impaired the quality of the institution’s ADC loans. For example:

   Global Cash Flow Analysis. Examiners noted in the 2006 examination that the bank
    appeared to have satisfactory knowledge of borrowers; however, recommendations to
    enhance Appalachian’s global cash flow analysis were made and this issue was
    repeated in subsequent examinations. Fundamentally, global cash flow analysis helps
    a lender assess a borrower’s repayment capacity. Given the composition of
    Appalachian’s portfolio, examiners emphasized the importance of management
    understanding a builder’s or developer’s capacity to repay.

   Credit Memoranda. Credit memoranda, which are prepared by bank officials, are
    an integral step in the lending function, especially on larger, complex, or problem
    credits. Credit memoranda basically serve as documentation of a loan request and
    should, therefore, include details pertaining to (1) the borrower, including sources of
    repayment capacity; (2) the project, including background and feasibility analysis;
    and (3) the collateral value, including both market value and liquidation value. In the
    2006, 2007, and 2008 examinations, examiners indicated that Appalachian’s credit
    memoranda generally lacked sufficient detail to affirm the borrower’s
    creditworthiness, guarantor financial strength and experience, and the likelihood of a
    project’s success.

   Interest Reserves. According to the 2007 examination report, the bank did not have
    a formal way to track the dollar amount of interest reserves, or the percentage of the
    loan portfolio that had embedded interest reserves. The report recommended that
    Appalachian begin tracking the use of interest reserves. Further, Appalachian’s loan
    policy did not adequately address interest reserves. For the 2008 examination,
    Appalachian provided examiners with a spreadsheet that identified $51.8 million in
    loans with $6.2 million in documented interest reserves, but this document did not
    take into account loans for which interest reserves may have been funded but not
    formally documented. The 2008 examination report recommended that
    Appalachian’s loan policy should clearly discourage the use of interest reserves for
    projects that had experienced significant development or construction delays, cost
    overruns, sales or leasing shortages, or were otherwise not performing according to
    the original loan agreement.




                                             7
Apparent Violations and Contraventions of Interagency Policy Statements

Appalachian also failed to comply with various regulatory requirements, including those
designed to ensure that institutions have adequate collateral protection for real estate
loans.

   Loan-to-value (LTV) Limits. The 2006 and 2007 examinations cited Appalachian
    for being in apparent contravention of Appendix A of Part 365, Interagency
    Guidelines for Real Estate Lending Policies. These guidelines are intended to assist
    institutions in the formulation and maintenance of real estate lending policy and
    establish supervisory LTV limits for loans secured by real estate. The aggregate
    amount of all loans in excess of supervisory limits should not exceed 100 percent of
    total capital. The total of all loans in excess of supervisory LTV limits represented
    110 percent and 107 percent in 2006 and 2007, respectively.

   Appraisals. In 2008, examiners noted numerous deficiencies regarding real estate
    appraisals and cited Appalachian for being in apparent violation of Part 323 of the
    FDIC’s Rules and Regulations, Real Estate Appraisals, and apparent contravention of
    Interagency Appraisal and Evaluation Guidelines. According to the third quarter
    2008 external loan review performed for Appalachian, numerous ADC loans were
    supported by outdated appraisals. Specifically, appraisals performed during 2005 and
    2006 were likely to inaccurately reflect the project’s current value. The external loan
    review report further noted that as existing loans were considered for renewal, the age
    and quality of the existing appraisal should be evaluated. Consistent with this
    external loan review, examiners found that appraisals had not been updated to reflect
    significant market deterioration.

    In 2009, management proactively identified problem credits and attempted to reduce
    the volume of these credits by aggressively charging down loan balances to the
    appraised value. This effort resulted in approximately 50 percent of the bank’s loans
    having lower internal ratings for ALLL calculations prior to the 2009 examination.
    During 2009, the bank ordered over 1,000 new appraisals. However, in 2009,
    examiners found that many comparable sales used in the new appraisals pre-dated the
    economic downturn. Aside from impacting decisions being made with regard to loan
    renewals, the poor quality appraisals affected the calculation of the ALLL, as
    discussed below.

   Allowance for Loan and Lease Losses (ALLL). The 2008 and 2009 examinations
    cited Appalachian for being in apparent contravention of Interagency Policy
    Statement on the Allowance for Loan and Lease Losses (ALLL Policy Statement),
    which reiterates key concepts and requirements related to generally accepted
    accounting principles and existing supervisory guidance.6 Examiners found that


6
 Statement of Financial Accounting Standards (FAS) No. 5, Accounting for Contingencies, and
FAS No. 114, Accounting by Creditors for Impairment of a Loan, provide accounting guidance for loss
contingencies on a pool basis and impairment of loans on an individual basis, respectively.


                                                   8
    Appalachian needed to better support and document its methodology for estimating
    credit losses on groups of loans with similar characteristics under FAS 5.

    With regard to FAS 114, the bank individually evaluated all internally criticized and
    classified loans using the fair value of collateral method. When measuring impaired
    loans under the fair value of collateral method, management used the most recent “as
    is” appraised value. Under this method, the “as is” appraised value of the collateral is
    considered the starting point for determining its fair value. Appalachian applied a
    discount based on the age of the appraisal. However, among other concerns,
    examiners found that the “new” appraisals completed in 2009 used sale comparables
    that pre-dated the economic downturn. For example, the bank applied a 10 percent
    discount to an appraisal that was 6 months old even though the sale comparables used
    for the appraisal were 2 years old. As a result, the level of incurred losses was not
    fully reflected in the ALLL.

   Risk Management Practices for CRE (and ADC) Concentrations. Examiners
    determined that a number of Appalachian’s concentration risk management practices
    were not consistent with those called for in the Joint Guidance. For example:

    (1) Management had not established acceptable risk exposure limits and appropriate
        sub-limits for CRE and ADC loans as a percentage of gross loans and total assets.
    (2) There was no evidence of documentation supporting management’s periodic
        market analysis of loan types and geographic markets.
    (3) Management had not developed a contingency plan to reduce or mitigate
        concentrations.
    (4) There was no evidence of documentation showing performance of portfolio-level
        stress tests or sensitivity analysis to quantify the impact of changing economic
        conditions on asset quality, earnings, and capital.



The FDIC’s Supervision of Appalachian

Our review focused on FDIC and DBF supervisory oversight of Appalachian between
2006 and 2010. The FDIC and DBF conducted timely and regular examinations of
Appalachian and monitored its condition through the use of offsite monitoring
mechanisms. Through its supervisory efforts, the FDIC and DBF identified risks in
Appalachian’s operations and brought these to the attention of the bank’s Board and
management through examination reports and other correspondence. Such risks included
the bank’s growth, significant concentrations in CRE and ADC loans, and poor Board
and management oversight of risk management processes. Regulators imposed a formal
enforcement action following the 2008 examination; however, Appalachian’s response
fell short, and the financial condition of the bank became critically deficient.

In retrospect, a more critical supervisory assessment of Management and Asset Quality
based on Appalachian’s increasing risk profile during the 2006 and 2007 examinations
may have been prudent. Such an approach could have helped to establish supervisory


                                             9
expectations with regard to ADC concentrations and the bank’s responsibilities for
mitigating the associated risks at a critical point in time. Further, this approach may have
led to lower CAMELS ratings in 2006 and 2007 and possibly an informal supervisory
action, which would have increased supervisory attention to Appalachian’s performance
and risks earlier.

The FDIC has taken a number of actions to address issues discussed in this report based
on lessons it has learned from failures during the financial crisis. Of note, in 2008, the
FDIC reiterated broad supervisory expectations with regard to managing risk associated
with CRE and ADC concentrations. Further, the FDIC completed a training initiative in
March 2010 for its supervisory workforce that emphasizes the need to assess a bank’s
risk profile using forward-looking supervision. The training addresses the need for
examiners to consider management practices as well as current financial performance or
trends in assigning ratings, as allowable under existing examination guidance.

Supervisory History

The FDIC and the DBF conducted four onsite examinations of Appalachian between
August 2006 and the bank’s failure. Table 3 summarizes key supervisory information.

Table 3: Appalachian’s Examination History, 2006 to 2009
                                          Supervisory                         Apparent Violation of
   Start         As of                      Ratings        Supervisory        Law or Contravention
                             Agency        (UFIRS)*                            of Policy Reported
   Date          Date                                         Action
 10/2/2006     6/30/2006       FDIC         222222/2            None                      
 8/24/2007     6/30/2007       DBF          222222/2            None                      
                               FDIC         444433/4       Cease & Desist                 
 9/29/2008     6/30/2008                                      (C&D)*
 9/15/2009     9/30/2009       Joint        555555/5           (C&D)                      
 Source: ROEs for Appalachian.
   *In September 2008, Appalachian adopted a Bank Board Resolution (BBR). FDIC officials explained
   that the bank was attempting to demonstrate it was proactively trying to address issues to preempt
   pursuit of a formal action (i.e., the C&D).

In addition, the FDIC monitored the condition of the bank through its offsite review
process. For example, as described later in this report, the FDIC made interim contact
with the bank to discuss the bank’s exposure to the declining housing market in 2007.
The FDIC’s Offsite Review List (ORL) flagged Appalachian for review based on
September 30, 2008 and December 31, 2008 Call Report data. The September 2008
onsite examination had already recommended downgrading the bank’s overall composite
rating and pursuit of a C&D by the time these two offsite reviews were complete. Offsite
monitoring continued during 2009, and Appalachian was added to the ORL based on
June 2009 data because of concerns related to its ALLL. Accordingly, the FDIC targeted
the ALLL as part of its September 2009 onsite examination.




                                                  10
Supervisory Response to Key Risks

Examiners identified Appalachian’s ADC concentrations and made recommendations to
improve loan underwriting and credit administration in both 2006 and 2007. However,
Appalachian was rated a composite “2”, meaning the bank was considered to be
fundamentally sound with only moderate weaknesses that were well within the Board’s
and management’s capabilities and willingness to correct. In retrospect, a more critical
supervisory assessment of Management and Asset Quality in light of Appalachian’s
growth, loan underwriting and credit administration weaknesses, and declining capital
levels in 2006 and 2007 would have been prudent for reasons discussed more fully
below.

2006 Supervisory Activities

Supervisory activity in 2006 primarily consisted of the FDIC’s onsite examination. The
pre-examination planning memorandum noted that the bank had experienced rapid
growth over the last 3 years, mainly from ADC loans. Further, the memorandum noted
that the bank had increased its reliance on brokered deposits to fund that growth, in part,
because brokered deposits were less costly than deposits in the local market.
Interestingly, a bank official who was interviewed as part of the pre-examination
planning process acknowledged that the economy had a “substantial” impact on the bank.
At the time, the bank official noted that housing trends across the nation were showing
signs of slowing but viewed growth in the bank’s trade area as remaining good.

The 2006 examination report stated that the overall condition of the bank was
satisfactory. The examination also stated that asset quality was satisfactory with a
manageable volume of classified assets and past due loans. However, examiners noted a
number of concerns related to loan documentation, monitoring of loan concentrations,
loan underwriting, and credit administration. Examiners made a recommendation to
enhance the process for monitoring the ADC concentration and a series of
recommendations to enhance loan underwriting and credit administration issues. Further,
the report cited Appalachian for being in contravention of Appendix A of Part 365,
Interagency Guidelines for Real Estate Lending Policies, which was a repeat finding.
Although these issues were identified, examiners concluded at the time that senior
management and the Board continued to effectively operate the bank. One factor
considered by examiners in making that assessment was the fact that management had
been responsive in the past in addressing weaknesses identified by examiners.

Capital levels were also viewed to be satisfactory based on adequate earnings retention,
satisfactory asset quality, and the demonstrated ability of ABI – its holding company – to
provide capital injections. However, as discussed in the PCA section of this report, in
June 2006, the bank fell slightly below Well Capitalized for a brief period because funds
available from the holding company were not promptly downstreamed to the bank.
Notably, although management immediately arranged for a capital injection in order to
reinstate the bank’s capital status and attributed the error to management oversight, the
examination report does not discuss restrictions on brokered deposits that are imposed
when an institution falls below Well Capitalized. Under the FDIC’s Rules and


                                            11
Regulations Part 337, Unsafe and Unsound Banking Practices, Undercapitalized and
Adequately Capitalized institutions are prohibited from obtaining or rolling over brokered
deposits. However, Adequately Capitalized institutions may request a waiver of the
prohibition. The examination pre-planning memorandum discussed the need to provide
the bank with guidance about brokered deposit waivers.

In hindsight, a more critical assessment of Appalachian’s Management component based
on identified weaknesses and the bank’s capital levels in relationship to its growing ADC
portfolio may have been prudent. Such an approach would have been consistent with
supervisory guidance in place at that time and later strengthened by the Joint Guidance
that emphasizes the Board’s and management’s responsibility to properly control and
manage risks associated with ADC lending.

2007 Supervisory Activities

As part of its offsite monitoring process, the FDIC made interim contact with the bank in
June 2007 to discuss the bank’s exposure to the slowing housing market. DBF’s onsite
examination began in August.

Interim Contact. According to the bank official interviewed by examiners, the housing
market in the bank’s trade area was relatively good and the local economy was seen as
stable. The official stated a further slow down could adversely impact the bank but
viewed capital and earnings to be sufficient to mitigate the impact. Further, the bank
official stated that management had taken steps to address 2006 examiner
recommendations and was planning to gradually reduce the bank’s ADC concentrations.
The financial condition of the bank was satisfactory at the time contact was made based
on March 31, 2007 Call Report data.

August 2007 Examination. Despite a decline in asset quality, the examination report
stated that the risk profile of the bank had not changed from the prior examination, noting
that management continued to pursue strong loan growth with the portfolio centered in
ADC. The bank’s Adversely Classified Items Coverage Ratio had increased from
20.69 percent to 33.12 percent, but the report stated that the classifications were generally
consistent with the bank’s internal watch list and the overall level of problem loans was
manageable.

Examiners also viewed capital as satisfactory, attributing downward trends in capital and
earnings to Appalachian’s rapid asset growth and expansion efforts. Although these were
potentially troubling trends in a softening real estate market, examiners concluded that
earnings were sufficient and ABI served as a source of strength for the bank. Indeed,
ABI provided a $3 million capital injection during 2007, which kept Appalachian’s
capital levels above regulatory minimums.




                                             12
In hindsight, heightened concern related to Appalachian’s risk profile in light of a
softening real estate market may have been prudent. Specifically, downgrading the
Management and/or Asset Quality component ratings may have been called for
considering the following:

   As of June 30, 2007, Appalachian’s ADC concentrations represented approximately
    371 percent of Tier 1 Capital. This level of concentrations left Appalachian
    vulnerable to a slowing real estate market absent a sound contingency plan to reduce
    or mitigate concentrations.

   Despite management’s assertion that it had addressed prior examination
    recommendations, the 2007 examination report made a number of repeat
    recommendations related to loan underwriting and credit administration, and
    Appalachian remained in apparent contravention of LTV limitations. In addition, the
    report was clear that Appalachian’s credit underwriting culture needed to improve.

Downgrading one or both of these component ratings could have led to an informal
supervisory action that would have required the Board and management to develop a
more formal plan with affirmative actions for correcting deficiencies and allowed the
FDIC and DBF to more closely monitor Appalachian’s progress. We recognize that
rating determinations are a matter of judgment and the severe economic downturn that
ensued after the examination was not foreseen. Further, while it was possible for
examiners to downgrade the Management component, it may have been difficult for them
to support a lower Asset Quality rating in 2007 based on weak practices because the
bank’s earnings and capital were considered to be satisfactory at that time.

2008 and 2009 Supervisory Activities

As Appalachian’s condition deteriorated, supervisory oversight increased. In 2008,
examiners downgraded the composite CAMELS rating from a “2” to a “4”. Examiners
attributed the bank’s overall poor condition and substantial deterioration to Appalachian’s
excessive concentrations in CRE and ADC lending, coupled with lax underwriting and
credit administration practices, and the economic downturn. Examiners also concluded
that capital was deficient relative to the bank’s risk profile, deteriorating condition, and
poor earnings performance. Details about Appalachian’s capital levels and the impact of
two capital infusions made by ABI during 2008 are discussed in the Implementation of
PCA section of this report. Although the Board adopted a BBR during the examination to
demonstrate its commitment and willingness to address issues, examiners pursued a C&D
which became effective April 24, 2009. The C&D included 17 provisions aimed at
addressing Board oversight, management qualifications, the levels of concentrations,
credit practices, capital levels and plans, funding issues, and violations of law and
contraventions of statements of policy.

During 2009, the FDIC and DBF monitored Appalachian’s compliance with the C&D
through quarterly progress reports. The 2009 examination report stated that management
had achieved compliance with many of the provisions but was not in full compliance with
critical provisions related to management qualifications, ALLL methodology, capital


                                            13
adequacy, brokered deposits, and earnings performance. Although management had tried
to correct weaknesses and proactively write down problem assets, the 2009 examination
report stated that the overall condition of the bank remained poor and the viability of the
bank was a significant concern without a capital injection. The bank received a “5”
composite rating. The report stated the volume of problem assets was overwhelming in
comparison with the available personnel and capital. Further, capital levels had
decreased significantly from the prior examination and reached a critically deficient level.

Supervisory Lessons Learned

According to the Examination Manual, the quality of an institution’s management,
including its Board of Directors and executive officers, is perhaps the single most
important element in the successful operation of a bank. The Board has overall
responsibility and authority for formulating sound policies and objectives for the bank
and for effectively supervising the institution’s affairs. The Examination Manual further
states that

       …to effectively prevent serious problems in an institution, the conditions and
       circumstances that may lead to problems must be identified and corrected early.
       Corrective action should be taken immediately upon identifying excessive risk
       taking…when corrective action is not taken until conditions have deteriorated it is
       often too late to avoid failure. Moral suasion and informal agreements are
       normally sufficient where the unacceptable risk-taking is identified early, but
       formal action must be considered, even when an institution is rated 1 or 2, if
       circumstances warrant.

In hindsight, Appalachian’s risk profile may have warranted greater supervisory concern
and earlier and stronger supervisory action. Such actions may have involved component
and/or composite rating downgrades and pursuit of an informal supervisory action, such
as a BBR or memorandum of understanding, to ensure the bank more promptly and
effectively corrected its operational deficiencies and focused on mitigating risks.

The FDIC has taken steps to increase supervisory attention to banks that have risk
profiles similar to Appalachian. On January 26, 2010, the FDIC issued guidance to its
examiners that defines procedures for better ensuring that examiner concerns and
recommendations are appropriately tracked and addressed. Specifically, the guidance
defines a standard approach for communicating matters requiring Board attention
(e.g., examiner concerns and recommendations) in examination reports. The guidance
also states that examination staff should request a response from the institution regarding
the actions that it will take to mitigate the risks identified during the examination and
correct noted deficiencies.

Finally, the FDIC completed a training initiative in March 2010 for its entire supervisory
workforce that emphasizes the need to assess a bank’s risk profile using forward-looking
supervision. The training addressed the need for examiners to consider management
practices as well as the financial institution’s current financial performance or trends in
assigning ratings as allowable under existing examination guidance.


                                            14
Implementation of PCA

Section 38, Prompt Corrective Action, of the FDI Act establishes a framework of
mandatory and discretionary supervisory actions pertaining to all institutions. The
section requires regulators to take progressively more severe action, known as “prompt
corrective actions,” as an institution’s capital levels deteriorate. The purpose of PCA is
to resolve problems of insured depository institutions at the least possible long-term cost
to the DIF. Part 325, Capital Maintenance, of the FDIC Rules and Regulations defines
the capital measures used in determining the supervisory actions that will be taken
pursuant to section 38 for FDIC-supervised institutions. Part 325 also establishes
procedures for the submission and review of capital restoration plans and for the issuance
of directives and orders pursuant to section 38. The FDIC is required to closely monitor
the institution’s compliance with its capital restoration plan, mandatory restrictions
defined under section 38(e), and discretionary safeguards imposed by the FDIC (if any)
to determine if the purposes of PCA are being achieved.

Based on supervisory actions taken with respect to Appalachian, the FDIC properly
implemented applicable PCA provisions of section 38. Table 4 illustrates Appalachian’s
capital levels relative to the PCA thresholds for Well Capitalized Institutions.

Table 4: Appalachian’s Capital Levels
                                                  Tier 1        Total
                                  Tier 1          Risk-         Risk-                 Capital
       Period Ending             Leverage         Based         Based              Classification
 Well-Capitalized Threshold      5% or more     6% or more    10% or more
           June 2006                8.29           8.70           9.82          Adequately Capitalized
           June 2007                8.01           9.01          10.08              Well Capitalized
           June 2008                7.63           8.88           9.92          Adequately Capitalized
        September 2008              7.15           8.71          10.69              Well Capitalized
        December 2008               6.73           8.09          10.08              Well Capitalized
         March 2009                 5.99           8.06          10.08              Well Capitalized
           June 2009                3.74           5.22           7.26              Undercapitalized
       September 2009               2.14           2.91           4.97       Significantly Undercapitalized
        December 2009               1.73           2.26           3.62        Critically Undercapitalized
Source: UBPRs and ROEs for Appalachian and Part 325 of the FDIC Rules and Regulations.

As discussed earlier in this report, Appalachian was cited in the 2006 examination as
being Adequately Capitalized for the quarter ending June 30, 2006. Management
immediately arranged for a capital injection to return the bank to a Well Capitalized
position, which was sustained until June 30, 2008. Specifically, during the 2008
examination, Appalachian fell to Adequately Capitalized based on June 30, 2008 Call
Report data and again ABI provided two capital injections to return the bank to a Well
Capitalized position for PCA purposes.

However, the 2008 examination report advised management to maintain capital levels
that were commensurate with the bank’s complexity, size, and risk profile and also
reminded management under FDIC’s Rules and Regulations Part 337, Unsafe and
Unsound Banking Practices, that restrictions on brokered deposits are imposed when an


                                                15
institution falls below Well Capitalized. In addition, as discussed earlier, the FDIC issued
a C&D, effective on April 24, 2009, that included a capital provision requiring
Appalachian to (1) within 90 days of the effective date of the order maintain Tier 1
Capital at 8 percent and Total Risk-Based Capital at 10 percent and (2) within 30 days of
the effective date of the order develop and adopt a capital plan for meeting minimum
risk-based capital requirements for a Well Capitalized institution.

On May 22, 2009, Appalachian submitted a capital plan to the FDIC as part of its first
progress report that was also required by another C&D provision. Appalachian’s capital
plan described various scenarios it planned to pursue to ensure that it had sufficient
capital to meet regulatory requirements based on financial forecasts for a 2-year planning
horizon, 2009-2011. On July 1, 2009, FDIC and DBF officials met with Appalachian to
discuss capital options the bank was pursuing.

Subsequently, on August 26, 2009, the FDIC notified Appalachian that it had fallen to
Undercapitalized based on the June 30, 2009 Call Report capital ratios. The FDIC’s
PCA notification letter outlined restrictions pursuant to Part 325 of the FDIC Rules and
Regulations, including restrictions on asset growth, dividends, and other capital
distributions. The letter also stated that Appalachian was required to submit a capital
restoration plan within 45 days of receipt of the letter, or by October 10, 2009. The FDIC
also met with bank officials on August 26, 2009, as part of its pre-planning examination
process, to discuss ABI’s ongoing efforts to raise capital. The onsite examination
commenced on September 29, 2009 and focused on compliance with the C&D, including
the capital-related provision.

On October 30, 2009, as part of its third quarter progress report, Appalachian submitted
an updated capital plan that it considered to be its capital restoration plan.7 Although the
plan was not submitted within 45 days as required, examiners were in the midst of an
onsite examination and were aware of Appalachian’s plans and ongoing efforts to raise
capital. Appalachian’s revised capital plan was updated to reflect financial forecasts
based on September 30, 2009 data. The progress report also summarized the actions
Appalachian had taken since July 2009 to increase capital.

Section 38 requires that the FDIC act on capital restoration plans expeditiously, and
generally not later than 60 days after a plan is submitted. On October 29, 2009, the FDIC
documented its determination that the bank had not submitted an acceptable capital plan
in accordance with the C&D or in response to the August 26, 2009 written PCA
notification in its information system and also noted that a failing bank case was being
prepared. Further, FDIC officials told us that they orally informed Appalachian that the
capital plans submitted were not acceptable. Although FDIC procedures for processing a
capital restoration plan include providing a written notice to the bank advising of the
approval or disapproval of the plan, in our view, given ongoing examination activities


7
 Appalachian also submitted an application for the Troubled Asset Relief Program on
October 30, 2008 for funding of $27.26 million. The bank subsequently withdrew its application on
January 7, 2009.


                                                  16
during this period, the lack of a written notification to the bank was an apparent oversight
and inconsequential to the supervision and failure of the bank.

Under PCA, provisions applicable to Significantly Undercapitalized institutions apply to
institutions that fail to provide an acceptable capital restoration plan. In this case, those
provisions already applied because Appalachian was considered Significantly
Undercapitalized as of September 30, 2009. Specifically, on November 23, 2009 the
FDIC notified Appalachian that it was Significantly Undercapitalized based on
September 30, 2009 Call Report data. The FDIC’s PCA notification letter outlined
restrictions imposed pursuant to Part 325 in the PCA notification letter. Further, on
January 20, 2010, the FDIC notified Appalachian that it was Critically Undercapitalized
based on interim financial information that the bank provided to the FDIC. The PCA
notification letter outlined the mandatory and discretionary actions permitted by the
FDIC pursuant to Part 325. Ultimately, the bank was unsuccessful in efforts to raise
capital and was closed by DBF on March 19, 2010.


Corporation Comments

On October 1, 2010, the Director, DSC, provided a written response to the draft report.
That response is provided in its entirety as Appendix 4 of this report. DSC reiterated the
OIG’s conclusions regarding the causes of Appalachian’s failure. With regard to our
assessment of the FDIC’s supervision of Appalachian, DSC summarized supervisory
activities between 2006 and 2009 described in our report, including onsite examinations,
offsite monitoring, and the issuance of a formal enforcement action in 2009. DSC agreed
that greater emphasis could have been placed on Appalachian’s increasing risk profile.
Further, in recognition of the threat that institutions with high risk profiles, such as
Appalachian, pose to the DIF, DSC stated it has issued guidance to financial institutions
that re-emphasizes the importance of robust credit risk management practices for
institutions with concentrated CRE exposures and sets forth broad supervisory
expectations.




                                              17
                                                                               Appendix 1

                     Objectives, Scope, and Methodology


Objectives

We performed this audit in accordance with section 38(k) of the Federal Deposit
Insurance Act (FDI Act), as amended by the Dodd-Frank Wall Street Reform and
Consumer Protection Act (Financial Reform Act), which provides, in general, that if the
Deposit Insurance Fund incurs a material loss with respect to an insured depository
institution, the Inspector General of the appropriate federal banking agency shall prepare
a report to that agency reviewing the agency’s supervision of the institution. The
FDI Act requires that the report be completed within 6 months after it becomes apparent
that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from May 2010 to September 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit included an analysis of Appalachian’s operations from 2006 until
its failure on March 19, 2010. Our review also entailed an evaluation of the regulatory
supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

        Analyzed examination reports prepared by the FDIC and the DBF examiners from
         2006 to 2010.

        Reviewed the following:

              Bank data and correspondence maintained at the DSC’s Atlanta Regional
               Office and Atlanta Metro Field Office,

              Reports prepared by the Division of Resolutions and Receiverships (DRR)
               and DSC relating to the bank’s closure.

              Pertinent DSC policies and procedures and various banking laws and
               regulations.


                                             18
                                                                                 Appendix 1

                     Objectives, Scope, and Methodology


        Interviewed the following FDIC officials:

              DSC management in Washington, D.C., and the Atlanta Regional Office and
               Atlanta Metro Field Office.

              FDIC examiners from the DSC Atlanta Metro Field Office, who participated
               in examinations or reviews of examinations of Appalachian.

        Interviewed officials from the DBF to discuss the historical perspective of the
         institution, its examinations, and other activities regarding the state's supervision
         of the bank.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, ROEs,
and interviews of examiners to understand Appalachian’s management controls
pertaining to causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including ROEs, correspondence files, and testimonial evidence to
corroborate data obtained from systems that was used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act and the FDIC’s Rules and Regulations.
The results of our tests were discussed, where appropriate, in the report. Additionally, we
assessed the risk of fraud and abuse related to our objectives in the course of evaluating
audit evidence.




                                               19
                                                                             Appendix 1

                   Objectives, Scope, and Methodology

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum also indicated that the OIG
planned to provide more comprehensive coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
MLR reports related to failures of FDIC-supervised institutions and these reports can be
found at www.fdicig.gov. In June 2010, the OIG initiated an audit, the objectives of
which are to (1) determine the actions that the FDIC has taken to enhance its supervision
program since May 2009, including those specifically in response to the May 2009
memorandum, and (2) identify trends and issues that have emerged from subsequent
MLRs.

In addition, with respect to more comprehensive coverage of specific issues, in May
2010, the OIG initiated an evaluation of the role and federal regulators’ use of the Prompt
Regulatory Action provisions of the FDI Act (section 38, PCA and section 39, Standards
for Safety and Soundness) in the banking crisis.




                                            20
                                                                                Appendix 2

                             Glossary of Terms


Term                                                 Definition
Acquisition,           ADC loans are a component of Commercial Real Estate that provide
Development, and       funding for acquiring and developing land for future construction,
Construction (ADC)     and providing interim financing for residential or commercial
Loans                  structures.

Adversely Classified   Assets subject to criticism and/or comment in an examination report.
Assets                 Adversely classified assets are allocated on the basis of risk (lowest
                       to highest) into three categories: Substandard, Doubtful, and Loss.

Affiliate              Under section 23A of the Federal Reserve Act (12 U.S.C. section
                       371c), an affiliate generally includes, among other things, a bank
                       subsidiary, or a company that (1) controls the bank and any other
                       company that is controlled by the company that controls the bank,
                       (2) is sponsored and advised on a contractual basis by the bank, or
                       (3) is controlled by or for the benefit of shareholders who control the
                       bank or in which a majority of directors hold similar positions in the
                       bank.

Allowance for Loan     The ALLL is an estimate of uncollectible amounts that is used to
and Lease Losses       reduce the book value of loans and leases to the amount that is
(ALLL)                 expected to be collected. It is established in recognition that some
                       loans in the institution’s overall loan and lease portfolio will not be
                       repaid. Boards of directors are responsible for ensuring that their
                       institutions have controls in place to consistently determine the
                       allowance in accordance with the institutions' stated policies and
                       procedures, generally accepted accounting principles, and
                       supervisory guidance.

Call Report            Reports of Condition and Income, often referred to as Call Reports,
                       include basic financial data for insured commercial banks in the
                       form of a balance sheet, an income statement, and supporting
                       schedules. According to the Federal Financial Institutions
                       Examination Council’s (FFIEC) instructions for preparing Call
                       Reports, national banks, state member banks, and insured
                       nonmember banks are required to submit a Call Report to the
                       FFIEC’s Central Data Repository (an Internet-based system used for
                       data collection) as of the close of business on the last day of each
                       calendar quarter.

Cease and Desist       A C&D is a formal enforcement action issued by a financial
Order (C&D)            institution regulator pursuant to 12 U.S.C. section 1818 to a bank or
                       affiliated party to stop an unsafe or unsound practice or a violation
                       of laws and regulations. A C&D may be terminated when the
                       bank’s condition has significantly improved and the action is no
                       longer needed or the bank has materially complied with its terms.




                                          21
                                                                             Appendix 2

                           Glossary of Terms


Commercial Real      CRE loans are land development and construction loans (including
Estate (CRE) Loans   1-to-4 family residential and commercial construction loans) and
                     other land loans. CRE loans also include loans secured by
                     multifamily property and nonfarm nonresidential property, where the
                     primary source of repayment is derived from rental income
                     associated with the property or the proceeds of the sale, refinancing,
                     or permanent financing of the property.

Concentration        A concentration is a significantly large volume of economically
                     related assets that an institution has advanced or committed to a
                     certain industry, person, entity, or affiliated group. These assets
                     may, in the aggregate, present a substantial risk to the safety and
                     soundness of the institution.

FDIC’s Supervision   The FDIC’s supervision program promotes the safety and soundness
Program              of FDIC-supervised institutions, protects consumers’ rights, and
                     promotes community investment initiatives by FDIC-supervised
                     institutions. The FDIC’s Division of Supervision and Consumer
                     Protection (DSC) (1) performs examinations of FDIC-supervised
                     institutions to assess their overall financial condition, management
                     policies and practices (including internal control systems), and
                     compliance with applicable laws and regulations and (2) issues
                     related guidance to institutions and examiners.

Global Cash Flow     A global cash flow analysis is a comprehensive evaluation of
Analysis             borrower capacity to perform on a loan. During underwriting, proper
                     global cash flow must thoroughly analyze projected cash flow and
                     guarantor support. Beyond the individual loan, global cash flow
                     must consider all other relevant factors, including: guarantor’s
                     related debt at other financial institutions, future economic
                     conditions, as well as obtaining current and complete operating
                     statements of all related entities. In addition, global cash flow
                     analysis should be routinely conducted as a part of credit
                     administration. The extent and frequency of global cash flow
                     analysis should be commensurate to the amount of risk associated
                     with the particular loan.

Interest Reserve     An interest reserve account allows a lender to periodically advance
Account              loan funds to pay interest charges on the outstanding balance of the
                     loan. The interest is capitalized and added to the loan balance.
                     Frequently, ADC loan budgets will include an interest reserve to
                     carry the project from origination to completion and may cover the
                     project’s anticipated sellout or lease-up period.

Loan-to-Value        A ratio for a single loan and property calculated by dividing the total
                     loan amount at origination by the market value of the property
                     securing the credit plus any readily marketable collateral or other
                     acceptable collateral.



                                        22
                                                                             Appendix 2

                           Glossary of Terms


Material Loss        As defined by section 38(k)(2)(B) of the FDI Act, and as amended
                     by the Dodd-Frank Wall Street Reform and Consumer Protection
                     Act, for the period beginning January 1, 2010 and ending
                     December 31, 2011, a material loss is defined as any estimated loss
                     in excess of $200 million.

Offsite Review       The FDIC’s Offsite Review Program is designed to identify
Program              emerging supervisory concerns and potential problems so that
                     supervisory strategies can be adjusted appropriately. Offsite reviews
                     are performed quarterly for each bank that appears on the Offsite
                     Review List. Regional management is responsible for implementing
                     procedures to ensure that Offsite Review findings are factored into
                     examination schedules and other supervisory activities.

Peer Group           Institutions are assigned to 1 of 15 peer groups based on asset size,
                     number of branches, and whether the institution is located in a
                     metropolitan or non-metropolitan area.

Prompt Corrective    The purpose of PCA is to resolve the problems of insured depository
Action (PCA)         institutions at the least possible long-term cost to the Deposit
                     Insurance Fund. Part 325, subpart B, of the FDIC Rules and
                     Regulations, 12 Code of Federal Regulations, section 325.101, et.
                     seq., implements section 38, Prompt Corrective Action, of the FDI
                     Act, 12 United States Code section 1831(o), by establishing a
                     framework for determining capital adequacy and taking supervisory
                     actions against depository institutions that are in an unsafe or
                     unsound condition. The following terms are used to describe capital
                     adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                     (3) Undercapitalized, (4) Significantly Undercapitalized, and
                     (5) Critically Undercapitalized.

Risk-Based Capital   A “supplemental” capital standard under Part 325 of the FDIC Rules
                     and Regulations. Under the risk-based framework, a bank’s
                     qualifying total capital base consists of two types of capital
                     elements, “core capital” (Tier 1) and “supplementary capital” (Tier
                     2).




                                        23
                                                                               Appendix 2

                              Glossary of Terms


Tier 1 (Core) Capital   Defined in Part 325 of the FDIC Rules and Regulations, 12 C.F.R.
                        section 325.2(v), as
                        The sum of:
                        • Common stockholder’s equity (common stock and related surplus,
                        undivided profits, disclosed capital reserves, foreign currency
                        translation adjustments, less net unrealized losses on available-for-
                        sale securities with readily determinable market values);
                        • Non-cumulative perpetual preferred stock; and
                        • Minority interest in consolidated subsidiaries;
                        Minus:
                        • Certain intangible assets;
                        • Identified losses;
                        • Investments in securities subsidiaries subject to section 337.4; and
                        • Deferred tax assets in excess of the limit set forth in section
                        325.5(g).

Troubled Asset Relief   TARP is a program of the United States Department of the Treasury
Program (TARP)          to purchase assets and equity from financial institutions to
                        strengthen the financial sector.

Uniform Bank            The UBPR is an individual analysis of financial institution financial
Performance Report      data and ratios that includes extensive comparisons to peer group
(UBPR)                  performance. The report is produced by the Federal Financial
                        Institutions Examination Council for the use of banking supervisors,
                        bankers, and the general public and is produced quarterly from Call
                        Report data submitted by banks.

Uniform Financial       Financial institution regulators and examiners use the Uniform
Institutions Rating     Financial Institutions Rating System (UFIRS) to evaluate a bank’s
System (UFIRS)          performance in six components represented by the CAMELS
                        acronym: Capital adequacy, Asset quality, Management practices,
                        Earnings performance, Liquidity position, and Sensitivity to market
                        risk. Each component, and an overall composite score, is assigned a
                        rating of 1 through 5, with 1 having the least regulatory concern and
                        5 having the greatest concern.

Wholesale Funding       Wholesale funding sources include, but are not limited to, Federal
                        funds, public funds, Federal Home Loan Bank advances, the Federal
                        Reserve’s primary credit program, foreign deposits, brokered
                        deposits, and deposits obtained through the Internet or CD listing
                        services. Financial institutions may use wholesale funding sources
                        as an alternative to core deposits to satisfy funding and liability
                        management needs.




                                           24
                                                                       Appendix 3

                               Acronyms

ADC      Acquisition, Development, and Construction

ALLL     Allowance for Loan and Lease Losses

BBR      Bank Board Resolution

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity to
         Market Risk

CRE      Commercial Real Estate

DBF      Georgia Department of Banking and Finance

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FDI      Federal Deposit Insurance

FHLB     Federal Home Loan Bank

FIL      Financial Institution Letter

LTV      Loan-to-Value

OIG      Office of Inspector General

ORL      Offsite Review List

PCA      Prompt Corrective Action

ROE      Report of Examination

TARP     Troubled Asset Relief Program

UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institutions Rating System



                                        25
                                                                                       Appendix 4

                                    Corporation Comments




Federal Deposit Insurance Corporation
  550 17th Street NW, Washington, D.C. 20429-9990               Division of Supervision and Consumer Protection

                                                                        October 1, 2010
TO:              Stephen Beard
                 Assistant Inspector General for Material Loss Reviews

                 /Signed/
FROM:            Sandra L. Thompson
                 Director

SUBJECT:         FDIC Response to the Draft Audit Report Entitled, Material Loss Review of
                 Appalachian Community Bank, Ellijay, Georgia (Assignment 2010-044)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Federal Deposit
Insurance Corporation’s Office of Inspector General (OIG) conducted a material loss review of
Appalachian Community Bank (Appalachian), which failed on March 19, 2010. This memorandum
is the response of the Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft
Report (Report) received on September 8, 2010.

Appalachian failed due to the Board’s and management growth strategy centered on a high
concentration of acquisition, development and construction (ADC) loans which lacked adequate
oversight, coupled with the failure to develop risk management practices commensurate with the size
and complexity of the loan portfolio. A rapid deterioration of the asset quality due to inadequate
underwriting and credit administration led to losses and the decline of Appalachian’s capital. The
Georgia Department of Banking and Finance (DBF) closed Appalachian when recapitalization
efforts failed and sale of the institution did not materialize.

The FDIC and DBF provided ongoing supervisory oversight of Appalachian, with four on-site risk
management examinations supplemented by offsite monitoring. As early as 2006, examiners noted
concerns with documentation, the monitoring of loan concentrations, credit underwriting and loan
administration. They made several recommendations to enhance monitoring. In 2007, examiners
noted the deterioration in asset quality since the previous FDIC examination and requested that
management proactively address this issue. The 2008 examination concluded that asset quality was
continuing to significantly decline, earnings performance was poor, and capital levels were deficient.
As a result, Appalachian was downgraded to a composite “4” rating, and a Cease and Desist order
was issued in April 2009.

We agree that greater emphasis could have been placed on Appalachian’s increasing risk profile, and
we recognize the threat that institutions with high risk profiles, such as Appalachian, pose to the
Deposit Insurance Fund. DSC has issued a Financial Institution Letter to banks on Managing
Commercial Real Estate Concentrations in a Challenging Environment that re-emphasizes the
importance of robust credit risk-management practices for institutions with concentrated CRE
exposures and sets forth broad supervisory expectations.

Thank you for the opportunity to review and comment on the Report.



                                                    26
